PROOF OF SERVICE
At the time of service, I was over 18 years of age and not a party to this action.
I am a resident of/employed in the County of _Alameda. My business/residence address
is .1305 Franklin St., Ste. 504, Oakland, CA. 94612.
On
following means:

December 21, 2020

, I served the following document(s) by the

Petition for Rehearing of Denial of a Writ of Certiorari
xx (By Regular Mail) I enclosed the documents in a sealed envelope or package addressed to the
addresses as set forth below and placed the envelope for collection and mailing, following
ordinary business practices. On the same day that correspondence is placed for collection and
mailing, it is deposited in the ordinary course of business with the United States Postal Service at
Oakland, California, in a sealed envelope or package with postage thereon fully prepaid.
By Golden State Overnight) I enclosed the documents in an envelope or package and
addressed to the persons or the addresses stated below, I placed the envelope for collection and
delivery at a Golden State Overnight dropbox at Oakland_, California for collection and
overnight delivery by Golden State Overnight.
(By Personal Service) I personally served the documents on
at the address listed below.
(By Facsimile Transmission) I faxed the documents to the persons set forth below at the faxnumber(s) listed below.
Department of Justice, Civil Division
Commercial Litigation Branch
Civil Division, Department of Justice
P.O. Box 480, Ben Franklin Station
Washington, D.C. 20044
Attn.: David R. Pehlke, Esq.

Office of the Solicitor General
U.S. Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
Attn.: Jeffrey B. Wall, Acting
Solicitor General

I declare under the laws of the State of California that the foregoing is true and correct, and
that this Declaration is executed on December 21, 2020 at Oakland, California.

Proof of Service

